          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




          IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN

          Audit of GSA’s Hiring Practices
          Report Number A110082/O/F/F11009
          September 30, 2011
          Assignment Number A130117
          September 30, 2013




A130117
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration

 DATE:              September 30, 2013
 TO:                Anthony E. Costa
                    Chief People Officer (C)

 FROM:
                    William Salamon
                    Audit Manager, Finance and Information Technology Audit Office
 SUBJECT:           Implementation Review of Corrective Action Plan
                    Audit of GSA’s Hiring Practices
                    Report Number A110082/O/F/F11009, September 30, 2011
                    Assignment Number A130117

This report presents the results of our implementation review of the Audit of GSA’s
Hiring Practices.

We have completed an implementation review of the management actions taken in
response to the recommendations contained in the subject audit report (See Appendix
A). The objective of our review was to determine whether the Office of the Chief People
Officer (OCPO) has taken the corrective actions as outlined in the Action Plan for Audit
of GSA’s Hiring Practices. To accomplish our objective we:

        Examined documentation submitted by the OCPO supporting accomplishment of
         the action plan steps;
        Performed limited testing of the implementation of actions outlined in the action
         plan, dated December 2, 2011; and
        Corresponded with OCPO personnel.

Our implementation review found that OCPO addressed the audit recommendations in
the corrective action plan, dated December 2, 2011.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

       William Salamon      Audit Manager       William.Salamon@gsaig.gov       (202) 273-7322

       Rhiannon             Auditor-In-         Rhiannon.Mastrocola@gsaig.gov   (202) 273-7322
       Mastrocola           Charge




A130117                                     1
On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.

Background

On September 30, 2011, we issued an audit entitled Audit of GSA’s Hiring Practices to
the OCPO. The OCPO manages GSA’s programs, policies, and operations for the
agency’s 12,000 employees, excluding the Office of Inspector General. The OCPO
organization includes the Office of Human Resources Services, the Office of Human
Capital Management, the Office of Information Management, the Office of Executive
Resources, and the Office of Program Performance.

Our audit found:

      Hiring data used to calculate and report GSA’s time-to-hire metrics to OPM is
       unreliable.
      Deficiencies identified during Delegated Examining Unit (DEU) Self-Audits were
       not addressed timely by the OCPO and regional Human Resource (HR) offices.
      GSA’s efforts to fully comply with the President’s Memorandum on “Improving the
       Federal Recruitment and Hiring Process” should be improved.

To address the issues identified in the report, we recommended that the Chief People
Officer (CPO):


      Develop a standardized methodology for collecting, documenting, and reporting
       hiring data across GSA. Also, implement procedures to verify and ensure that
       hiring metrics reported to OPM are accurate.
      Improve the system currently in place. Specifically, the CPO should enforce the
       Human Resources Management Accountability System (HRMAS) policy to
       ensure that the regional HR offices respond to the results of the DEU audits
       within 30 days; and to ensure that corrective actions are reviewed and approved
       by the Office of Human Capital Management within the required timeframe.
      Seek clarification (and/or an exception) directly from the Office of Personnel
       Management, in consultation with the Office of Management and Budget, to
       ensure that GSA’s use of the hurdle method in this manner is in support of the
       Presidential Memorandum. Additionally, implement its newly developed tools
       and resources as quickly as possible.

The CPO generally agreed with our recommendations.

Results

The results of our implementation review indicate that the OCPO has taken appropriate
corrective actions to address our recommendations. We determined that no further
action is necessary to address our recommendations.


A130117                                 2
Appendix A – Action Plan for Report Number A110082




A130117                  A-1
A130117   A-2
A130117   A-3
Appendix B – Report Distribution
Chief People Officer (C)

Audit Liaison, Office of the Chief People Officer (CD)

Director, Management and Oversight Division (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130117                                B-1
